CERTIFICATE OF SERVICE
NO. TBD
Eric Baggett
Petitioner(s)
v.
Oncor Electric Delivery Company, L.L.C.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the ERIC
BAGGETT PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Kevin Koronka
Husch Blackwell LLP
111 Congress, Suite 1400
Austin, TX 78701
(512) 472-5456
kevin.koronka@huschblackwell.com
Counsel for Oncor Electric Delivery Company, L.L.C.

Dan Abramovich
July 30, 2019
SCP Tracking: Smith III-9301 Southwest Freeway-Cover White

